               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00244-147


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

  Canandaigua VA Medical Center 

      Canandaigua, New York 





May 22, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                        CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MM         medication management
                       NA         not applicable
                       NIAAA      National Institute on Alcohol Abuse and
                                  Alcoholism
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                               CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profile and Services Provided ................................................................                           9

  B. PACT Compass Metrics ....................................................................................                    11

  C. Interim VISN Director Comments ......................................................................                        15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              19

  F. Report Distribution .............................................................................................            20

  G. Endnotes ...........................................................................................................         21





VA OIG Office of Healthcare Inspections
                                            CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY



                                                           Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of March 24, 2014, at the
Rochester CBOC, Rochester, NY, which is under the oversight of the Canandaigua VA
Medical Center and Veterans Integrated Service Network 2.

Review Results: We conducted four focused reviews and had no findings for the
Medication Management and Designated Women’s Health Providers’ Proficiency
reviews. However, we made recommendations in the following two review areas:

Environment of Care. Ensure that:

	     Processes are improved to ensure that a review of the hazardous materials
       inventory occurs twice within a 12-month period at the Rochester CBOC.

	     All identified Environment of Care (EOC) deficiencies at the Rochester CBOC are
       tracked by the parent facility EOC Committee until resolution.

Alcohol Use Disorder. Ensure that CBOC/PCC staff:

	     Consistently complete diagnostic assessments for patients with a positive alcohol
       screen.

	     Provide education and counseling for patients with positive alcohol screens and
       drinking levels above National Institute on Alcohol Abuse and Alcoholism limits.

	     Consistently document the offer of further treatment to patients diagnosed with
       alcohol dependence.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–18, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                                                                                                            
                                                                                                            JOHN D. DAIGH, JR., M.D.

                                                                                                           Assistant Inspector General for 

                                                                                                              Healthcare Inspections 




VA OIG Office of Healthcare Inspections                                                                                                        i
                            CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                         1
                           CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                 CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted a physical inspection of the Rochester CBOC.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
 X     The CBOC maintains a written, current             The inventory of hazardous materials was not
       inventory of hazardous materials and waste        reviewed for accuracy twice within the prior
       that it uses, stores, or generates.               12 months.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.


VA OIG Office of Healthcare Inspections                                                                 3
                                 CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY


NM               Areas Reviewed (continued)                                  Findings
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not lying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
 X     EOC rounds are conducted semi-annually (at         EOC deficiencies are reported to the parent
       least twice in a 12-month period) and              facility EOC Committee, but actions taken in
       deficiencies are reported to and tracked by the    response to deficiencies are not tracked to
       EOC Committee until resolution.                    resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       The Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that processes are improved to ensure review of the hazardous
materials inventory occurs twice within a 12-month period at the Rochester CBOC.

2. We recommended that all identified EOC deficiencies at the Rochester CBOC are tracked
by the parent facility EOC Committee until resolution.




VA OIG Office of Healthcare Inspections                                                                  4
                                 CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY


AUD
The purpose of this review was to determine whether the facility’s CBOC and PCC complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 8 (20 percent) of 40 patients who had
                                                          positive alcohol use screens.
 X     Education and counseling about drinking            Staff did not provide education and counseling
       levels and adverse consequences of heavy           for 8 (27 percent) of 30 patients who had
       drinking are provided for patients with positive   positive alcohol use screens.
       alcohol screens and drinking levels above
       NIAAA guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for two of four patients
       dependence.                                        diagnosed with alcohol dependence.

       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
       CBOC/PCC RN Care Managers have
       received motivational interviewing training
       within 12 months of appointment to PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

3. We recommended that CBOC/PCC staff consistently complete diagnostic assessments for
patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                    5
                                 CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY


4. We recommended that CBOC/PCC staff provide education and counseling for patients with
positive alcohol screens and drinking levels above NIAAA limits.

5. We recommended that CBOC/PCC staff consistently document the offer of further
treatment to patients diagnosed with alcohol dependence.




VA OIG Office of Healthcare Inspections                                                              6
                                 CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 31 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                     Findings
       Clinicians documented the medication
       reconciliation process that included the
       fluoroquinolone.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.




VA OIG Office of Healthcare Inspections                                                              7
                                 CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOC and PCC complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                      Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                              8
                                                                     CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY
                                                                                                                                Appendix A


                                                                   CBOC Profile 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to the Canandaigua VAMC’s CBOC.

                                                                                 Uniquesd                                     Encountersd

                          Station                   CBOC
     Location   State                Localitye                     MHg        PCh        Otheri       All        MHg        PCh        Otheri       All
                             #                       Sizef
    Rochester    NY       528GE        Urban      Very Large      3,489      9,941      10,386      12,908     33,345      23,411     75,142     131,898




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                    9
                              CBOC and PCC Reviews Canandaigua VA Medical Center, Canandaigua, NY


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOC provides various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at the CBOC.j

                                                                                               Tele-Health
        CBOC           Specialty Care Servicesk            Ancillary Servicesl
                                                                                                Servicesm
    Rochester                 Optometry                        Audiology                    Tele Primary Care
                                                                           n
                                Dental                       Rehabilitation
                               Podiatry                        Pharmacy
                             Dermatology                     Kinesiotherapy
                            Ophthalmology                      Radiology
                              Cardiology                   MOVE! Programo
                             Orthopedics                   Chiropractic Care
                               Urology                         Radiology
                              Pulmonary                   Electrocardiography
                              Neurology                         Nutrition
                          Outpatient General                 Diabetes Care
                               Surgery                  Pulmonary Function Test
                           Post-Amputation                  Sleep Medicine
                             Management                   Prosthetics/Orthotics
 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  For the purposes of this table, “Rehabilitation” includes Physical Therapy, Occupational Therapy, and Speech and 

Language Pathology.

o
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.

VA OIG Office of Healthcare Inspections                                                                           10
                                                                     CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY
                                                                                                                                Appendix B


                                                         PACT Compass Metrics





                                                                                                                                                            
Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.
VA OIG Office of Healthcare Inspections                                                                                                               11
                                                                      CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.




VA OIG Office of Healthcare Inspections                                                                                                                  12
                                                                       CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                       CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded
from this metric.


VA OIG Office of Healthcare Inspections                                                                                                                    14
                        CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY
                                                                                   Appendix C
                       Interim VISN Director Comments


               Department of
               Veterans Affairs                                Memorandum


           Date:       April 25, 2014

          From:        Interim Director, VA Health Care Upstate New York (10N2)

       Subject: 	      CBOC and PCC Reviews of the Canandaigua VA Medical
                       Center, Canandaigua, NY

             To:       Director, Bedford Office of Healthcare Inspections (54BN)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. We are submitting written comments in response to the Community
          Based Outpatient Clinic and Primary Care Clinic Review completed
          March 24-27, 2014, at the Rochester VA Outpatient Clinic in
          Rochester, New York.

       2. In reviewing the draft report, the facility addressed all identified
          deficiencies and has a plan to resolve all non-compliant areas cited in
          the report. Network 2 concurs with the report.

       3. If you have any questions regarding this response, please contact
          Karen Strobel, VISN 2 Quality Management Officer, (518) 626-7325.




VA OIG Office of Healthcare Inspections                                                    15
                        CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY
                                                                                   Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                Memorandum


           Date:       April 25, 2014

          From:        Director, Canandaigua VA Medical Center (528A5/00)

       Subject:        CBOC and PCC Reviews of the Canandaigua VA Medical
                       Center, Canandaigua, NY

             To:       Interim Director, VA Health Care Upstate New York (10N2)

       1. We are submitting written comments in response to the Community
          Based Outpatient Clinic and Primary Care Clinic Review completed
          March 24-27, 2014, at the Rochester VA Outpatient Clinic in Rochester
          New York.

       2. In reviewing the draft report, the facility has addressed all identified
          deficiencies and has a plan to resolve all non-compliant areas cited in
          the report. I concur with the report.

       3. If you have any questions regarding this response, please contact
          Paula LeGrett, Quality Manager at (585) 393-7573.




VA OIG Office of Healthcare Inspections                                                    16
                        CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes are improved to ensure review
of the hazardous materials inventory occurs twice within a 12-month period at the
Rochester CBOC.

Concur

Target date for completion: May 8, 2014

Facility response: The Industrial Hygienist will coordinate the hazardous material
inventory by May 8, 2014, and again by November 13, 2014, and then every six months
in accordance with the VA Directive 0059, VA Chemicals Management and Pollution,
dated May 25, 2012. Compliance will be monitored at the Environment of Care
Committee in May and November each year.

Recommendation 2. We recommended that all identified EOC deficiencies at the
Rochester CBOC are tracked by the parent facility EOC Committee until resolution.

Concur

Target date for completion: May 8, 2014

Facility response: The parent facility EOC Committee will track and follow up on all EOC
deficiencies at the Rochester CBOC to ensure successful resolution. Action plan log
has been implemented to ensure ongoing tracking and trending of open items through
closure. Compliance will be monitored monthly of the EOC minutes.

Recommendation 3. We recommended that CBOC/PCC staff consistently complete
diagnostic assessments for patients with a positive alcohol screen.

Concur

Target date for completion: May 1, 2014

Facility response: PCC clinical staff reeducated about the definitions of high risk
drinking behaviors, NIAA limits, the use of the AUDIT-C screening tool, the value of the
Positive AUDIT-C clinical reminder, and the importance of completing this clinical
reminder on all Veterans. Processes have been implemented to ensure consistent
notification of clinical staff when an AUDIT-C screen is positive so that appropriate
counseling and referrals may take place. Compliance with completion of diagnostic
assessments for patients with a positive alcohol screen will be monitored monthly.


VA OIG Office of Healthcare Inspections                                                    17
                        CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY


Recommendation 4. We recommended that CBOC/PCC staff provide education and
counseling for patients with positive alcohol screens and drinking levels above NIAAA
limits.

Concur

Target date for completion: June 30, 2014

Facility response: PCC clinical staff were reeducated on the value of brief intervention,
and use of the Positive AUDIT-C content for identifying Veterans who require further
education and counseling interventions. All clinical staff received further education on
disease-specific motivational interviewing (MI) for alcohol use disorders (AUD).

Compliance with documenting patient education and counseling provided for patients
with a positive alcohol screen and drinking levels above NIAAA limits will be monitored
monthly. Auditing results will be reported to the Executive Committee for Medical Staff
quarterly to ensure compliance is monitored.

Recommendation 5. We recommended that CBOC/PCC staff consistently document
the offer of further treatment to patients diagnosed with alcohol dependence.

Concur

Target date for completion: May 1, 2014

Facility response: PCC clinical staff reeducated on the identification of patients who
meet the clinical criteria for alcohol dependence. All clinical staff reeducated on the
importance of consistently documenting the offering of further treatment to Veterans
diagnosed with alcohol dependence. Compliance with documenting the offer of further
treatment to patients diagnosed with alcohol dependence will be monitored monthly.
Auditing results will be reported to the Executive Committee for Medical Staff quarterly
to ensure compliance is monitored.




VA OIG Office of Healthcare Inspections                                                    18
                        CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY
                                                                                   Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Annette Acosta, RN, MN, Team Leader
Contributors            Elaine Kahigian, RN, JD
                        Frank Keslof, EMT, MHA
                        Jeanne Martin, PharmD
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                    19
                        CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY
                                                                                   Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Interim Director, VA Health Care Upstate New York (10N2)
Director, Canandaigua VA Medical Center (528A5/00)


Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Kirsten E. Gillibrand, Charles E. Schumer
U.S. House of Representatives: Louise McIntosh Slaughter

This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                    20
                         CBOC and PCC Reviews at Canandaigua VA Medical Center, Canandaigua, NY
                                                                                    Appendix G

                                              Endnotes 


1
  References used for the EOC review included:
  US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
  US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
   Privacy Rule, August 14, 2002.
 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                   21
